               OFFICE OF
               INSPECTOR
               GENERAL
               UNITED STATES POSTAL SERVICE




         Military Mail Reimbursements

                       Audit Report




                                              March 21, 2013

Report Number MS-AR-13-006
                                                                          March 21, 2013

                                                         Military Mail Reimbursements

                                                         Report Number MS-AR-13-006




BACKGROUND:
The U.S. Postal Service partners with         to pay the airline carriers directly — and
the U.S. Departments of Defense and           $17,000 in labor costs associated with
State to deliver mail to military and         the billing process. We also determined
diplomatic facilities within and outside of   that the Postal Service does not have a
the continental U.S. Responsibilities and     process to identify and seek
accountability for transporting and           reimbursement for customer claims that
processing military mail are outlined in      can be traced to delayed or damaged
agreements between the Postal Service         mail caused by the Departments of
and the Departments of Defense and            Defense or State. We estimate the
State. These departments reimbursed           Postal Service’s liability for these claims
the Postal Service about $644 million in      is at least $440,000 per year.
fiscal year (FY) 2011 and $465 million in
FY 2012 for airline carrier transportation    Finally, we noted that the agreement
costs incurred to transport mail for their    between the Postal Service and the
departments.                                  Department of Defense is 33 years old
                                              and does not reflect current processes,
Our objective was to determine whether        including the method for reimbursing
the payment and billing processes for         transportation costs.
transporting military mail were efficient
and effective.                                WHAT THE OIG RECOMMENDED:
                                              We recommended the Postal Service
WHAT THE OIG FOUND:                           institute a payment process for
The Postal Service pays air carriers for      interagency agreements that eliminates
transportation costs incurred to transport    upfront payment of costs by the Postal
Department of Defense and Department          Service. We also recommended the
of State mail to foreign destinations in      Postal Service establish a process to
advance and later obtains                     identify and receive reimbursement for
reimbursement from the departments.           customer indemnity claims and update
By instituting processes that require         agreements with the Departments of
these departments to pay for mail             Defense and State accordingly to reflect
transportation costs directly, the Postal     these new processes.
Service can eliminate about $149,000
per year — the cost of borrowing funds        Link to review the entire report
March 21, 2013

MEMORANDUM FOR:            TIM0THY F. O'REILLY
                           VICE PRESIDENT, CONTROLLER

                           DAVID E. WILLIAMS, JR.
                           VICE PRESIDENT, NETWORK OPERATIONS




                           for
FROM:                      Darrell E. Benjamin, Jr.
                           Deputy Assistant Inspector General
                            for Revenue and Performance

SUBJECT:                   Audit Report – Military Mail Reimbursements
                           (Report Number MS-AR-13-006)

This report presents the results of our audit of Military Mail Reimbursements (Project
Number 12RD001EN000).

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Janet Sorensen, director, Sales
and Marketing, or me at 703-248-2100.



Attachments

cc: Megan J. Brennan
    Joseph Corbett
    Giselle E. Valera
    Brent A. Raney
    George S. Rudy
    Corporate Audit and Response Management
Military Mail Reimbursements                                                                                       MS-AR-13-006




                                               TABLE OF CONTENTS


Introduction ..................................................................................................................... 1

Conclusion ...................................................................................................................... 1

Reimbursement Process ................................................................................................. 1

Payment Process Alternatives ........................................................................................ 2

Tracking Process ............................................................................................................ 2

Agreement With the Department of Defense ................................................................... 3

Recommendations .......................................................................................................... 3

Management’s Comments .............................................................................................. 4

Evaluation of Management’s Comments ......................................................................... 4

Appendix A: Additional Information ................................................................................. 5

   Background ................................................................................................................. 5

   Objective, Scope, and Methodology ............................................................................ 5

   Prior Audit Coverage ................................................................................................... 6

Appendix B: Monetary and Other Impacts....................................................................... 7

Appendix C: Management's Comments .......................................................................... 8
Military Mail Reimbursements                                                                       MS-AR-13-006




Introduction

This report presents the results of our audit of Military Mail Reimbursements (Project
Number 12RD001EN000). Our objective was to determine whether the payment and
billing processes for transporting military mail are efficient and effective. This
self-initiated audit addresses financial and operational risk. See Appendix A for
additional information about this audit.

The U.S. Postal Service partners with the U.S. Department of Defense (DoD) and the
U.S. Department of State (DoS) to deliver mail to military facilities in the Continental
U.S. (CONUS) and military and State Department personnel and their families outside
the CONUS. The Postal Service has agreements with the DoD and DoS that prescribe
procedures related to moving DoD and DoS mail.1 Currently, the Postal Service pays air
transportation costs incurred to transport DoD and DoS mail to foreign destinations in
advance and obtains reimbursement from the DoD and DoS. Although this process is
outlined in the DoS agreement, it is not currently included in the DoD agreement. The
DoD and DoS reimbursed the Postal Service about $644 million and $465 million for
airline carrier transportation costs in fiscal years (FYs) 2011 and 2012, respectively. The
DoD accounts for about 98 percent of annual reimbursed costs.

Conclusion

Currently, the Postal Service pays air carriers for costs incurred to transport DoD and
DoS mail to foreign destinations in advance and later obtains reimbursement from the
departments. By instituting processes that require the DoD and DoS to pay mail
transportation costs directly, the Postal Service can eliminate about $149,000 per year
— the cost of borrowing funds to pay the airline carriers directly — and $17,000 in labor
costs associated with the billing process. We also determined that the Postal Service
does not have a process to identify and seek reimbursement for customer claims that
can be traced to mail the DoS or DoD delayed or damaged. We estimate the Postal
Service’s liability for these claims is at least $440,000 per year. Finally, we noted that
the agreement between the Postal Service and the DoD is 33 years old and does not
reflect current processes, including the method for reimbursing transportation costs.
Updating this agreement and the agreement with the DoS every 5 years, as required,
would reduce the risk of noncompliance with applicable laws and regulations. See
Appendix B regarding the monetary impacts.

Reimbursement Process

Procedures related to the payment and subsequent reimbursement of transportation
costs for DoD and DoS mail could be improved. Currently, the Postal Service pays

1
  Although this agreement is between the DoS and the Postal Service, the DoD facilitates some movement of mail for
the DoS.
                                                       1
Military Mail Reimbursements                                                                              MS-AR-13-006



commercial air carriers for transporting DoD and DoS mail and then invoices these
federal agencies for reimbursement. This process requires Postal Service personnel to
review, document, invoice, and reconcile reimbursement transactions — a process that
can take up to 60 days after the Postal Service has already paid the commercial air
carriers. Streamlining these procedures by using more effective payment methods could
result in the avoidance of about $149,000 in borrowing costs and $17,000 in labor costs
per year for an annual savings of $166,000.

Payment Process Alternatives

We identified two alternative payment mechanisms that would reduce or eliminate
reimbursement costs currently incurred by the Postal Service. One mechanism
available is known as 'direct cite' billing, which requires contractor services to be billed
directly to the DoD and DoS. This process would terminate the Postal Service’s
'middleman' function in the bill payment process and subsequently eliminate the
associated labor costs currently expended by the Postal Service to provide invoicing,
posting, and reconciliation services. Both the DoD and DoS expressed interest in this
option.

A second mechanism consists of using either the Intra-Governmental Payment and
Collection (IPAC) system, which government agencies use to transfer appropriations2
from one agency to another, or electronic funds transfers (EFT), which transfers actual
dollars from one entity to another. Either process would reduce the capital costs
incurred by the Postal Service by reducing the delay between invoicing and
reimbursement. However, it would not eliminate the need for the Postal Service to act
as the 'middleman' or reduce the associated labor costs.

We believe the 'direct cite' option provides the greater opportunity for increased
efficiency and effectiveness. This process eliminates capital costs and labor costs for
the Postal Service. The IPAC or EFT options only reduce the capital costs and the
Postal Service would still incur labor costs to manage the process.

Tracking Process

The Postal Service does not have a process in place to gather or monitor reimbursable
claims paid to customers for delay, loss, or damage caused by the DoD or DoS. For
example, Express Mail® failure3 rates to U.S. Army and Air Force post offices (APO),
U.S. Navy and Marine Corps post offices (FPO), and diplomatic post offices (DPO) were
83 percent and 75 percent in FYs 2011 and 2012, respectively. According to existing
agreements with the DoD and DoS, Postal Service payments made to customers for
claims related to lost, damaged, stolen, or wrongly delivered mail while in the
possession of the military are subject to reimbursement by the DoD and DoS. However,
the Postal Service did not track these types of claims and were not reimbursed by the
DoD or DoS. This occurred because there was no clear assignment of responsibility for

2
    Funds provided to government agencies for specified purposes.
3
    An Express Mail failure exists when delivery of the mailpiece occurs after the guaranteed delivery time.


                                                             2
Military Mail Reimbursements                                                                            MS-AR-13-006



ensuring compliance with the terms of these current agreements. We estimate the
Postal Service’s liability is at least $440,0004 in potential claims per year.

Agreement With the Department of Defense

Although updates to the agreement between the Postal Service and the DoD should
occur every 5 years,5 we determined this agreement has not been updated since 1980.
During the audit, Postal Service management advised they have held several meetings
to initiate the update process with the DoD; however, any written updates to the
agreement may not be incorporated into a draft document for over 1 year. The Postal
Service recently completed a 9-year process to update the agreement with the DoS,
which became effective October 25, 2011; however, this updated agreement does not
contain criteria identifying update frequency. Postal Service management cited higher
priority commitments as the leading cause for delays in updating these agreements.

Because the DoD agreement is not current, the Postal Service may have lost
opportunities for efficiency and increased revenue. For example, it has not sought
reimbursement from the DoD for lost, damaged, or delayed Express Mail claims
because this product was not offered in 1980 when the agreement was created. Had
the Postal Service made updates at appropriate intervals, it may have identified ways to
collect data and established a process to monitor these types of claims, which would
have enabled the agency to effectively request reimbursement.

Recommendations

We recommend the vice president, Controller:

1. Implement an alternative payment process for interagency agreements that
   eliminates advance payment of costs and associated labor expenses.

We recommend the vice president, Controller, in coordination with the vice president,
Network Operations:

2. Develop a process to identify and receive reimbursement for customer claims that
   can be traced to delayed or damaged mail caused by the U.S. Department of
   Defense or the U.S. Department of State.

3. Update the interagency agreements between the U.S. Postal Service, the U.S.
   Department of Defense, and the U.S. Department of State to include the use of
   effective payment methods associated with the reimbursement of mail transportation
   costs and establish criteria for periodic updates of these agreements.


4
  The liability identified is based on Express Mail failure rates derived from the Postal Service's On Time Performance
and Rate, Pieces, and Weights reports. We could not calculate the Postal Service’s total liability of potential claims
because data for other types of claims was not available.
5
  Publication 38, Postal Agreement with the Department of Defense, dated February 1980.


                                                           3
Military Mail Reimbursements                                                 MS-AR-13-006




Management’s Comments

Management generally agreed with our findings and recommendations. Regarding
recommendation 1, management stated in a subsequent conversation that their
disagreement with our finding and recommendation is based on their assertion that the
use of IPAC for payments had already been initiated at the start of our audit. They also
stated they will continue to explore the feasibility of other payment methods such as
pre-payment and direct cite while proceeding with the IPAC solution. Management did
not agree with the estimated $149,000 per year savings in advance payment costs
citing our calculations did not consider the benefits of quarterly prepayments from the
Navy, which began in FY 2013. Management’s target implementation date to adopt the
IPAC payment process is September 30, 2013.

Regarding recommendation 2, management stated they are taking steps to increase
tracking of mail items sent for APO, FPO, and DPO destinations. Improvements for
parcel products to enhance visibility are planned to help determine the last possession
(Postal Service, DoS, DoD, or air carrier). Management’s target implementation date is
December 31, 2013.

Regarding recommendation 3, management stated the present agreement does not
reflect current Postal Service processing and system operations, and has formed a
committee to renegotiate terms under current requirements. Management’s target
implementation date to update the status of negotiations is September 31, 2014.

See Appendix C for management’s comments, in their entirety.

Evaluation of Management’s Comments

The OIG considers management’s comments responsive to the recommendations and
corrective actions should resolve the issues identified in the report. The Postal Service
disagreed with recommendation 1 stating they were already pursuing the use of IPAC
before the start of our audit. Although we were aware the Postal Service had initiated
discussions regarding the use of IPAC, we considered this to be a preliminary initiative,
because the DoD and DoS have not agreed to this solution and no definitive plans have
been made. Management disagreed with the monetary impact stating the benefits
received in the form of advance quarterly prepayments from the Navy, starting in FY
2013, were not considered in our calculations. We did not include these payments in our
future monetary impact calculations because these payments are currently being made
at the discretion of the Navy and could be discontinued at any time.




                                            4
Military Mail Reimbursements                                                    MS-AR-13-006



                               Appendix A: Additional Information

Background

Military mail is comprised of domestic mail delivered to or on military bases within the
CONUS and international mail delivered to APOs, FPOs, and DPOs. According to a
33-year old agreement between the Postal Service and the DoD and a 2-year old
agreement between the Postal Service and the DoS, the Postal Service is responsible
for transportating mail:

   From Postal Service facilities to overseas military facilities.

   Between domestic Postal Service facilities and air or surface carriers.

   Between civilian post offices on military installations and the receiving or dispatching
    Postal Service facility.

The DoD is responsible for transporting mail from overseas military facilities to Postal
Service facilities and between Postal Service facilities within overseas areas.
Transportation fees for mail delivered within the CONUS are included in the customer's
postage price. The Postal Service pays fees for transporting mail between CONUS
gateways and overseas locations upfront and is reimbursed by the DoD and DoS.

Data such as weight, contract, and airline are recorded for each shipment of mail and
reconciled to the carrier invoices received by the St. Louis Accounts Payable Branch
(APB). The APB then prepares weekly invoices and forwards them to the DoD or DoS,
depending on which agency received mail. These agencies then approve the invoices
and reimburse the Postal Service. The Postal Service maintains the contract for air
carrier services and has no authority to pay the carrier directly with DoD or DoS funds.
As a result, this reimbursement arrangement has developed over the years, is not
specified in the agreement with the DoD, and only recently was included in the recently
revised agreement with the DoS. The DoD and DoS reimbursed to the Postal Service
about $644 million and $465 million for airline carrier transportation costs in FYs 2011
and 2012, respectively.

Objective, Scope, and Methodology

Our objective was to determine whether the payment and billing processes for
transporting military mail are efficient and effective.

We reviewed agreements between the Postal Service, DoD, and DoS and interviewed
officials from each organization. In addition, we obtained and reviewed military mail
transportation reimbursement data and assessed the reliability of this data by
interviewing Postal Service, DoD, and DoS personnel knowledgeable about the data.
We determined the data were sufficiently reliable for the purposes of this report.




                                               5
Military Mail Reimbursements                                                  MS-AR-13-006



We conducted this performance audit from August 2012 through March 2013 in
accordance with generally accepted government auditing standards and included such
tests of internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objective. We discussed our
observations and conclusions with management on February 6, 2013, and included
their comments where appropriate.

Prior Audit Coverage

The OIG report titled International Transportation Payments (Report
Number CA-AR-12-007, dated February 28, 2010) found that the Postal Service
generally provided sufficient oversight of the international air transportation contract.
The audit was unable to determine the accuracy of about $46 million per year surface
air support system initiated payments made between June 2009 and June 2011 that
were ultimately processed through Global Business System (6 percent of the total
payments). In addition, the Postal Service could not provide evidence of prior
certification, nor was supporting data maintained that could be readily reviewed. Postal
Service management disagreed with the basis of our finding, recommendation, and
monetary impact. The OIG considered management’s comments unresponsive but did
not pursue formal audit resolution.




                                            6
Military Mail Reimbursements                                                                         MS-AR-13-006




                             Appendix B: Monetary and Other Impacts

                                              Monetary Impacts

          Recommendation           Impact Category                                           Amount
                 1       Questioned Costs6 (FYs 2011 and                                     $261,944
                         2012)
                 1       Questioned Costs (about $149,000                                       297,518
                         per year)
                 1       Questioned Costs (Labor)                                               34,000
                 1       Funds Put To Better Use7                                               34,000
               Total                                                                          $627,462

                                                 Other Impacts

           Recommendation         Impact Category                                            Amount
                 3        Revenue at Risk8                                                   $879,692

We calculated questioned costs during FYs 2011 and 2012 by first identifying the
amount of funds the Postal Service paid to air carriers for military mail transportation
and the elapsed time between payment and reimbursement. We then multiplied the
daily amount of funds in use by a daily cost of capital rate9 for the appropriate period as
provided to us by the Postal Service's Financial Planning Office.

Questioned costs for FYs 2013 and 2014 were calculated using FYs 2011 and 2012
data for proxy, applying the current 0.247 percent cost of capital rate, and then
calculating the annual average of about $149,000 and multiplying that figure by 2.

Questioned costs (labor) ($17,000 per year for FYs 2011 and 2012) and funds put to
better use ($17,000 per year for FYs 2013 and 2014) represent the annual salary plus
benefits of one St. Louis Accounting Service Center full-time employee devoted to the
military mail transportation invoicing and reconciliation process.

Revenue at risk reflects an estimated dollar value of postage anticipated in FYs 2013
and 2014 for failed Express Mail pieces destined for DoD and DoS facilities. We based
this figure on the actual dollar value of similar items from FYs 2011 and 2012. Currently
no process exists to identify the portion of Express Mail failures attributable to the DoD
and DoS that would identify actual revenue lost. Without such a process in place, the
entirety of future amounts are at risk.

6
  Unnecessary, unreasonable, unsupported, or an alleged violation of law, regulation, contract, etcetera. May be
recoverable or unrecoverable. Usually a result of historical events.
7
  Funds that could be used more efficiently by implementing recommended actions.
8
  Revenue that the Postal Service is at risk of losing (for example, when a mailer seeks alternative solutions for
services currently provided by the Postal Service).
9
  Actual cost of capital rates used: October 2010–June 2011: 0.267 percent, June–November 2011: 0.187 percent,
and November 2011–September 2012: 0.145 percent.


                                                         7
Military Mail Reimbursements                                   MS-AR-13-006



                           Appendix C: Management's Comments




                                           8
Military Mail Reimbursements       MS-AR-13-006




                               9
Military Mail Reimbursements        MS-AR-13-006




                               10
Military Mail Reimbursements        MS-AR-13-006




                               11
